Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




      YOUTH AND ALCOHOL: 

    LAWS AND ENFORCEMENT 

IS THE 21-YEAR-OLD     DRINKING AGE A MYTH?




                      Richard P. Kusserow
                     INSPECTOR GENERAL

                          OEI-09-91-00650
               EXECUTIVE                         SUMMARY
PURPOSE

This inspection examined (1) current State laws and regulations governing youth
accessto alcohol and (2) how these laws are enforced.
                                                                             I
BACKGROUND

In response to public health concerns and the adverse health consequences of alcohol
abuse, Surgeon General Antonia Novello requested that the Office of Inspector
General (OIG) provide information on State alcohol laws and enforcement. These
concerns mirror one of Department of Health and Human Services (HI-IS) Secretary
Louis Sullivan’s goals which is to reduce the prevalence of alcohol problems among
children and youth. This report is one in a series prepared by the OIG related to
youth and alcohol. It describes the State laws about youth and alcohol and how State
alcoholic beverage control agencies enforce the laws.

At the Federal level, the National Minimum Drinking Age Act of 1984 required all
States to raise their minimum purchase and public possession age to 21. States that
did not comply faced a reduction in highway funds under the Federal Highway Aid
Act. The Department of Transportation has determined that all States are in
compliance with this Act.

During June and July     1991, we conducted interviews with State alcoholic beverage
control (ABC) and/or     State enforcement agency officials from all 50 States and the
District of Columbia.    Concurrently, we reviewed all State alcohol control laws and
regulations pertaining   to youth.

FINDINGS

State laws contain roopholes that permit underage drinking.

Although it is illegal to sell alcoholic beverages to minors, minors in many States can
legally purchase, attempt to purchase, possess,consume, and sell alcohol and enter
drinking establishments.

State and local agencies have dificulty enforcing youth alcohol laws.

States are hindered by (1) budget and staff reductions, (2) low priority of youth
alcohol enforcement, and (3) lack of ABC jurisdiction over minors.
    Nonzhzlpenalties    againrt vend& and minors hit     enforcemenl!s ef/ectivents.
i
    While vendors who sell to minors often are fined or have their licenses suspended,
    license revocations are rare. Penalties against youth who violate the laws often are
    not deterrents. Even when strict penalties exist, courts are lenient and do not apply
    them.

    States have di#ie    preventing farSe i&nt$cation   ue.                       I

    False identification is easy to obtain. Laws and penalties against minors’
    misrepresenting their age do not deter youth from using false identification to buy
    alcohol.

    Some States have developed creative metho& to enforce alcohol laws and penalize
    Ojpl-&~~


    Some of the more popular ideas include suspending driver’s licenses, establishing
    alternative penalties, allowing vendors to obtain signed statements from suspected
    minors, conducting decoy operations, educating vendors, and enacting stringent “dram
    shop” laws.

    Enforcement is inhibited by public amludk and dejiciencks in education.

    Public indifference prevents changes in youth attitudes toward alcohol. State officials
    described techniques to improve education’s effectiveness.

    CHECKLIST     FOR STATES

    We encourage States to examine their laws and policies concerning youth access to
    alcohol and provide a checklist for States in the report.




                                               ii
                          TABLEOFCONTENTS

ExEclxrlwESuMMARY 


INTRODUCI’ION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..~.........         1


FINDINGS           .................................. ... ................. 5


State laws contain loopholes that permit underage drinking . . . . . . . . . . . . . . . . . . . 5 


State and local agencies have difficulty enforcing youth 

alcohol laws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


Nominal penalties against vendors and minors limit 

enforcement’s effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


States have difficulty preventing false ID use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


Some States have developed creative methods to enforce alcohol 

laws and penalize offenders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


Enforcement is inhibited by public attitude and deficiencies 

in education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


CHECKLIST           FOR STATES             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                           INTRODUCTION

 PURPOSE

 This inspection examined (1) current State laws and regulations governing youth
 accessto alcohol and (2) how these laws are enforced.
                                                                           ,
 BACKGROUND

In response to public health concerns and the adverse health consequences of alcohol
abuse, Surgeon General Antonia Novello requested that the Office of Inspector
General (OIG) provide information on State alcohol laws and enforcement. These
concerns mirror one of Department of Health and Human Services (HHS) Secretary
Louis Sullivan’s goals which is to reduce the prevalence of alcohol problems among
children and youth. This report is one in a series prepared by the OIG related to
youth and alcohol.

Youth Alcohol Use

As reported in recent surveys, youth under the legal drinking age of 21 drink alcohol.
 In a June 1991 report, the OIG reported that 51 percent of the nation’s 20.7 million
junior and senior high school students have had at least 1 drink within the past year.
Eight million students drink weekly and 454,000 binge weekly. In addition, students
reported that alcohol is easy to obtain. Nearly 7 million students purchase their own
alcohol from stores.’ In addition to the OIG survey, the 1990 National High School
Senior Survey found that 89.5 percent of high school seniors have drunk alcohol at
least once, and 32.2 percent have experienced a “binge” of five or more drinks in a
row within the previous 2 weeks.2

Govemment and public Interest Repme

At the Federal level, the National Minimum Drinking Age Act of 1984 required all
States to raise their minimum purchase and public possession age to 21. States that
did not comply faced a reduction in highway funds under the Federal Highway Aid




   ‘Office of Inspector General, Youth and Alcohol: A National Survev--Drinking Habits,
Access, Attitudes, and Knowledge, June 1991, p. 3.

   ‘University of Michigan, Institute for Social Research,“Monitoring the Future: A
Continuing Study of the Lifestyles and Values of Youth,” January 1991.


                                              1
 F
  ‘.I
i -’




        Act.3 The Department of Transportation has determined that all States are in
    i
        compliance with this Act.

        The National Minimum Drinking Age Act specifically prohibits purchase and public
        possession of alcoholic beverages. It does not prohibit persons under 21 (also called
        youth or minors) from drinking. The term “public possession” is strictly defined and
        does not apply to possession:

        b      for an established religious purpose;

        b      when accompanied by a parent, spouse, or legal guardian age 21 or older;

        b	     for medical purposes when prescribed or administered by a licensed physician,
               pharmacist, dentist, nurse, hospital, or medical institution;

        b      in private clubs or establishments; and

        b	     in the course of lawful employment by a duly licensed manufacturer,
               wholesaler, or retailer.

        Article XXI of the United States Constitution, which repealed prohibition, grants
        States the right to regulate alcohol distribution and sale. State laws are unique, but
        each allows local communities to regulate youth accessto alcohol through local
        ordinances and law enforcement.

        Private organizations, including alcohol industry and public-interest groups, are
        becoming more involved in identifying ways to decrease or eliminate youth access to
        alcohol. Some organizations, such as Mothers Against Drunk Driving (MADD) and
        the newly-created Century Council, work to reduce alcohol abuse throughout the
        country by educating the public and lobbying for legislation.

        Controlling Alcoholic BeverageSale and Dihbution

        Each State decides how it will license and operate the alcoholic beverage industry-­
        either through a control or license structure. Eighteen “control” States have partial or
        total responsibility to distribute and sell alcohol. Thirty-three “license” States issue
        permits or licenses to individuals or companies to sell alcohol.

        All States have either State or local administrative agencies that issue liquor licenses
        and/or enforce the laws against vendors and youth. State agencies, usually called
        alcoholic beverage control (ABC) agencies, regulate the manufacture, distribution, and
        sale of alcoholic beverages within the State. Forty-nine States have ABCs while


           ‘Kevin Kadlec, “National Minimum Drinking Age,” ClevelandState Law Review (34),
        1986, p. 637.

                                                    2
Hawaii and Nevada rely on local agencies to oversee State alcohol laws. These
agencies monitor all vendors (also called licensees or permit holders).

Thirty-nine States have “local option” provisions, which allow communities to limit or
ban the sale of alcohol. These communities also have the power to regulate where
and when alcohol is sold.

States require vendors to obtain State and/or local licenses. Licenses are renewed
usually on an annual basis after a renewal fee is paid and other requirements are met.
As of July 1991, there were approximately 560,000 retail licenses issued in the United
States.

Laws

State laws address separately youth-related violations. These include:

b	     Sales to minors. Prohibits vendors or any other persons from selling, giving, or
       otherwise providing alcohol to minors.

c      Purchase. Prohibits or limits minors from obtaining alcohol from vendors or
       other sources.

b	     Possession. Generally prohibits or limits minors from carrying or handling
       alcohol. All State laws contain various exemptions, such as handling alcohol in
       the course of employment and possession with parental permission.

b      Consumption. Prohibits or limits minors’ actual drinking of alcoholic beverages.

k	     Misrepresentation of age. Provides for penalties against minors who present
       false identification or otherwise represent themselves as being of the legal
       purchase age.



State and local enforcement agencies may use administrative and/or criminal penalties
against alcohol law violators. Administrative penalties are assessedagainst vendors
through licensing agencies. Administrative penalties include fines and license
suspensions and revocations. Criminal penalties are assessedagainst vendors or
minors through State or local criminal courts. Criminal penalties include fines, jail
sentences, and diversionary programs, such as community service.




                                           3

METHODOIDGY

During June and July 1991, we conducted interviews with ARC and/or State
enforcement agency officials from 48 States and the District of Columbia. For Hawaii
and Nevada, we interviewed officials from appropriate local enforcement agencies.
We used structured discussion guides to obtain information about State laws and
enforcement practices, effectiveness, and interagency cooperation.

Concurrently, we reviewed all State alcohol control laws and regulations pertaining to
youth. We used the Commerce Clearing House Licmor Control Law Reoorter, which
continually tracks and updates State liquor control laws. We also used the National
Highway Traffic Safety Administration Digest of State Alcohol-Highwav Safetv
Related Legislation, which provides an overview of drunk driving-related laws. When
necessary, we contacted State officials to clarify provisions.
                                 FINDINGS 


STATE LAWS CONTAIN LOOPHOLES THAT PERMIT UNDERAGE
DRINKING

Ahhough it ir illegal to sell alcoholic bevemgesto rnhoq nzikots can legally pwchuse,
possg and consume aikohol                                                    I

The chart below illustrates the number of States that permit minors to legally obtain
and use alcohol and sell or sexve alcoholic beverages.


                           SALE,
                              PURCHASE,
                                    POSSESSION,
                                           ANDCONSUMPTION
                            ARETREATED
                                    DIFFERENTLY LAWS
                                           INSTATE



                                            BUT
   MINGRS IN LKXiNSED DRINKING ESTAFXJS-          EMPLOYMENT OF MINORS BY VENDORS
        lJsALPRovlDEDK)LOCALoRDINANCEINQsrAlEs             LEGALMALL5lsrArEs


         WITHOUTPARENTSORSPOUSEPRESENT                   SELL WITHOUT SUPERVISION
         uG&F5tovmDM3~~#3omm                                      44srms




    RlRCIL4SFi BY MINORS         POSSESSION BY h4lNORS
   PARTLULYLWALIN6SMES          LFG&lHR~Ex~IN31srAm
                                   lswEsUi!X -lAws
                              I         I           I




                                            5

    Although no Statespennit vendon to sell to minon, six States do not prohibit minors
i
    from pwdzaskg alcohol

    Six States do not have laws which prohibit minors from purchasing or attempting to
    purchase alcohol. However, these States prohibit minors from using false
    identification or misrepresenting their age. Recently, the Insurance Institute for
    Highway Safety conducted a study in New York and Washington, D.C. of alcohol
    vendors selling to minors. Minors purchased beer successful11in 44 to 80 percent of
    New York stores and 97 percent of Washington, D.C. stores. The Insurance
    Institute chose these States because no legal impediments existed for minors
    purchasing or attempting to purchase alcohol.

    States allow minors to po333s alcohol

    Under certain conditions, it is legal for minors to possessalcohol in many States.
    Minors can possessalcohol with parental consent, for religious purposes, in private
    residences, in public establishments with a parent or spouse of legal drinking age
    present, and for medicinal purposes. State officials mainly complained about the
    private residence exception because often no parental supenision is required. “Most
    drinking has gone into homes, rather than parking lots,” said one official. Another
    official added, “Our statute that makes it a crime for minors to consume in a public
    place is fine, but this does not cover private places. An example is a keg party at a
    private home. The police cannot arrest minors nor can they confiscate the keg of
    beer.”

    Some States have attempted to address this issue legislatively. For example, California
    enacted a “Kegger Statute” that allows authorities with probable cause to enter private
    establishments to investigate potential youth alcohol violations. Police are then
    allowed to “seize any alcoholic beverages in plain view at social gatherings, when those
    gatherings are open to the public, 10 or more persons under the age of 21 are
    participating, persons under the age of 21 are consuming alcoholic beverages, and
    there is no supervision of the social gathering by a parent or guardian of one or more
    of the participants.“’

    Five States prohibit minors from possessing alcohol only if they intend to consume it.
    Because they must prove “intent to consume,” law enforcement officials in these States
    are reluctant to arrest minors for possession of alcoholic beverages.




        ‘David F. Preusser and Allan F. Williams, Insurance Institute For Highway Safety, Sales of
    Alcohol to Underaee Purchasers in Three New York Counties and Washington, D.C., March
    1991, pp. 2 and 4.

       ‘California Alcoholic Beverage Control Act, Business and Professions Code, Section
    25662(b), p. 194.


                                                   6
lknty+ne     States do not specijZal@ prohibit consumption by minors

Officials from these States stressed that minors who consume alcohol can be
prosecuted under possession laws. However, one State’s law specifically contains a
loophole. Arkansas has no consumption law, and its possession law states that
“intoxicating liquor, wine, or beer in the body of a minor shall not be deemed to be in
his possession.”

State laws that alIow mikors to sell or seme alcohol without addt supenkion may result
in easieryouth accessto akohl

Forty-four States allow minors to sell alcohol without adult supervision in stores or
restaurants. According to an OIG survey of junior and senior high school students,
more than 3.5 million students purchase alcohol from stores with young clerks and
almost 3 million students purchase alcohol from stores where they know the clerk.6
State officials expressed concern about youth employment laws. “Store owners need to
know that youth are under a lot of pressure to sell to other youth,” said one State
official. Another State official said allowing unsupervised youth to sell alcohol was
“ridiculous.” Kentucky currently is considering revising youth employment laws to
change the age for serving alcohol from 20 to 21.

Although strict local ordinances may app&, 42 States do not prohibit minors from entering
d&king estoblidaments

State officials stressed that communities often determine youth accessto drinking
establishments. However, some officials complained that in communities with no
regulation, stopping youth drinking is difficult. “Letting minors into clubs causes a lot
of problems,” said one official. “It’s too easy for someone to buy a drink and then
push it over to the person who is underage.” Another official was concerned that his
State’s laws would become more relaxed. “One proposal would allow unaccompanied
minors into licensed facilities. This is a regulator’s nightmare. Underage drinking laws
would be unenforceable.”

STATE AND LOCAL AGENCIES HAVE DIFFICULTY                         ENFORCING YOUTH
ALCOHOL LAWS

The major obstacles to effective enforcement are (1) budget and staff reductions,
(2) low priority of youth alcohol enforcement, and (3) the lack of ABC jurisdiction
over minors. One official commented, “We do not have the mechanism or ability to
enforce the laws. Local police have another priority-drugs. They ignore alcohol.”


   ‘Office of Inspector General, the findings from the survey included in two reports, Youth
and Alcohol: A National Survey: Drinking Habits, Access, Attitudes. and Knowledge,
(OEI-09-91-00652) and Youth and Alcohol: A National Sut-vev: Do They Know What
Thev’re Drinking? (OEI-09-91-00653).

                                               7
i.
     Forty-three State officials argued that inadequate resources and manpower have
     hindered enforcement. Officials said:

     b	     “We are transferring all programs involving underage drinking to the local
            police. We have no personnel because of budget problems in this State. Since
            January, we have not done any enforcement. Two years ago, we had two
            investigators in the field; now we have no investigators.”

            “We have 10 field investigators for 9,000 to 10,000 licensees, whereas in 1969,
            we had 30 field investigators and 6,000 licensees.”

     b      “Our enforcement staff has been cut from 72 to 40.”

     State officials stressed that other priorities and lack of public support prevent
     enforcement agencies from being effective. “It’s a no-win situation,” said one official.
     “Law enforcement does not get public support for busting kids. Parents don’t want
     their child arrested for something that every other child does. Alcohol enforcement is
     the opposite of illicit drug enforcement.”


      ” Enforcing-youth alcohol laws is a low priority in some areas. One State
     ;I official described how costly this can be:
           .’
        . ..6p until 5 years ago, the average police oficer in New Hampshire didn’t do
           more than take the alcohol away from a youth found with alcohol. ‘About
     .‘I:Syears ago, there was a case in which several youth purchased alcohol in a
     .. small New Hampshire town. A police oficer stopped the vehicle and took the
     yI;,:al&h&, but he let the youth go. The police officer didn’t notify the parents. He
     ..“.‘ihought he was doing the kia!s a favor by not taking them into custody. The
     ,’ youth went to Massachusetts, bought more alcohol, and ended up in a car
           accident in which someone was killed. The parents of the person who was killed
       ’ sued the town. The New Hampshire Supreme Court fbwtd the town liable. It
      ::.was a vety expensive lawsuit. Since then, all police officers take youth into
         ..&stody until they can release them to their parents. The police are very
     .:’:..
     ~>;f”&&o~ about jjliy &sue now.”
      ,_:                                                                                  .:

     Local enforcement agencies frequently experience similar resource and priority 

     constraints. One official defended local agencies: ‘They give all of the time that they 

     are capable of giving. Demands for their services and resources are very high. The 

     communities are more interested in things like emergency response time.” 

     Cooperation and communication among ABCs and State and local law enforcement 

     agencies often is limited. Some officials complained that enforcement agencies do not 

     share arrest and complaint data with licensing agencies. 





                                                   8

NOMINAL PENALTIES AGAINST VENDORS AND MINORS LIMIT
ENFORCEMENTS EJTEW

 ??!hilevendor who sell to minors are ofien jibed or 3wipew   revocations are rare

Vendors who sell to minors are penalized by administrative and/or criminal sanctions.
The charts below illustrate the range of administrative and criminal penalties.




         RANGES
              OFADMINISTRATIVE
                            PENALTIES
                                    FORVENDORS
                   (FORFIRSTOFFENSE)




                     NOTHING 	              $5,000OR
                                            6-MONTH SUSPENSION

           RANGES
                OFCRIMINALPENALTIES
                                  FORVENDORS




                         $50                         $10,000
                                                          AND/OR
                                                    5YEARSINJAIL




When applied, license suspensions and revocations are effective deterrents because
vendors lose all alcohol revenues during the suspension period. However, State
agencies often do not suspend licenses for first offenses. In addition, at least
10 States allow vendors to pay increased fines in lieu of license suspensions. In one
State, vendors may pay $100 per day during a suspension rather than seme the
suspension. State officials say they rarely revoke licenses. Most States revoke licenses
only when flagrant violations--such as multiple violations, illicit drug sales, or
prostitution--occur on licensed premises.


                                            9
A few States do not penalize vendors for their employees’ actions. Employees may be
subject to criminal penalties, but agencies do not take administrative action against the
vendors, unless the vendor--rather than his employees--commits the violation.

Penuh     against youth ojkn are rwt detemenfs

Although youth alcohol violations are classified as misdemeanors in most States,
penalties can be insignificant. One State fines youth $15. An official from-a State
with a $25 penalty stated, “Many police do not even cite the minor, but they’ll cite the
licensee. For the kid who’s caught, sometimes the only inconvenience is having to
show up at our court as a witness.” The chart below indicates the range of youth
penalties:

           I         RANGES
                          OFPENALTIES
                                   FORMINORS



               FROM             TO
                          $10                   $5,000
                                                     AND/OR
                                                1YEARIN JAIL

A few States have developed separate fine structures for different age groups. In
Iowa, the law distinguishes between persons under 19 and those 19 and 20 years of
age. While persons under 19 are subject to a $100 fine and 30 days in jail for alcohol
violations, persons 19 to 20 are subject to a $15 fine which may be paid like a parking
ticket.

CbunB are lenient

Even when strict penalties exist, courts do not apply them, according to most State
officials. “Judges do not like mandatory penalties,” said one official. “Sometimes they
ignore the statutes. Kids are not held accountable for breaking the law.” Such
leniency translates into enforcement difficulties for the alcohol-control agencies.
Another official illustrated the problem. “I caught a kid in the parking lot with beer.
He was unconcerned. This was the second time in 8 months that he’s been caught.”

Court leniency is partly the product of priorities and overload. One official said, “The
courts look at alcohol as a nuisance. Drugs are a higher priority.” Overcrowding
results in lowered penalties, asserted a State official. He added, “Our courts are
virtually going to break down due to antiquated procedures and case overload. A
police officer can spend up to 3 days a week in court rather than on his or her
territory.”


                                           10
Court officials’ personal feelings may influence judgments. ‘There is definitely an ‘old-
boy network’ in some of the smaller towns, ” said an official. Another official described
the social pressures the courts encounter. ‘The court system faces attitudes, both
internally and externally. They hear that ‘it’s all part of growing up’ and ‘please don’t
give our son a police record’.” Another official summarized, ‘They have other
concerns. There is a prevailing attitude that ‘we did that when we were young’.”

STATES HAVE DIFFICULTY            PRE VENTING FALSE ID USE                    ,

Thirteen States admitted that they are having difficulty preventing youth from using
false identification documents (ID) to purchase alcohol. ‘There are kids who look
over 21, and their IDS look real,” said one official. Another official called his State’s
false ID problem “rampant.”

Although 46 States have laws and penalties against minors’ misrepresenting their age
and/or presenting false ID to purchase alcohol, these do not deter youth. “Kids do not
have a problem with using fake ID,” said one official. Another official stated that
minors will attempt to buy alcohol no matter how poor the identification is:

       We recently had an administrative hearing about a vendor who sold alcohol to
       a minor. The vendor asked for ID. The 16-year-old boy--who looked 16--
       presented the ID of 5-foot 4-inch female, except he had taped his picture on it.
       He was a 6-foot 5-inch male. Nonetheless, the clerk sold beer to him. Luckily,
       our officers had the store under surveillance and saw him carrying the beer out.

States have difficulty taking enforcement actions against vendors when minors use
false ID. “When fake ID is used, we cannot get the retailer for selling to the minor,”
said one official. Another official added, “An l&year-old used fake ID to buy alcohol
and got killed. The seller was sued, but the case was dismissed. The ID met statutory
requirements.”

Although States have attempted to combat the problem, they have had limited success.
Some States recommend that vendors purchase a book that contains pictures of all
legal State IDS. However, minors may obtain legal driver’s licenses with false birth
documents. Some manufacturers use counterfeiting equipment to produce near-
perfect reproductions. ‘There are sophisticated ID rings,” said one official. “We
cracked one that had stolen driver’s license material. Multiple felonies could have
been charged, but it was reduced to a municipal violation.”

State officials believe the Federal government must take action, because minors obtain
false ID from other States or through the mail. A Connecticut official stated, “Minors
can get State driver’s licenses in Times Square in New York City for $10 to $15 each.”
Two other State officials argued that the Federal government must crack down on
illegal ID manufacturers. “We’ve located the manufacturers, but we can’t regulate
those in other States,” said one official. “Federal legislation could make it illegal to



                                            11 

     sell anything through the mail which is designed to pass for a legal ID or State
i    license,” added another.

     SOME STATES HAVE DEVELOPED CREATIVE METHODS TO ENFORCE
     ALCOHOL LAWS AND PENALIZE OFFENDERS

     Faced with limited resources, States have developed innovative methods to prevent
     youth from obtaining alcohol. Some of the more popular ideas include suspending
     youth driver’s licenses, establishing alternative penalties for minors, allowing vendors
     to obtain signed statements from suspected minors, conducting decoy or “sting”
     operations, educating vendors on laws and penalties, and enacting stringent “dram
     shop” laws.

     Drivers license supension may be the only per&y    that deters youth




     11
                                          Of the 28 States that delay, suspend, or revoke
        ‘Tae one thing that a minor       youth drivers’ licenses for alcohol-related
                                          violations, some take action for any alcohol
                                          violation, while others do so for specific violations
                                          only. The suspension varies from several days to
     ,” of fines go u&lected              several years, depending on the State, violation,
        became there’s nothing the        and minor’s record.
     :. court can do if the minor
        doesn’t pay:”                    Officials from States with this option argue that
                                         traditional, statutory penalties do not deter youth.
                                         Judges rarely sentence minors to jail, and parents
     usually pay the monetary penalties, not the minors. One State official complained that
     “because of our State’s weak laws, kids come from surrounding States, both of which
     provide for license suspension.”

     cornnukty   senke and comse&g programs are other divemmary             penah


     Alternative penalties are one way to direct the 

     penalty at the minor. Judges often suspend a 

     sentence pending a minor’s completion of a 

     community service or counseling program. Youth 

     that are assigned community service often must 

     surrender dozens of hours to various community projects. Other minors need help 

     with alcohol dependency, and they are required to enroll in a counseling program. 





i


                                                 12 

    Some States ofer vendors the opporlunity to require swpected minors to sign affivik3
i
                                          Eleven States allow vendors to require buyers to sign
         “Wiile minqrs may have           affidavits stating that they are 21. The affidavit
         no problem., using fake             ._
                                          explains the penalties against minors who attempt to
                                          purchase alcohol or misrepresent their age.
      f ‘icientifitiatitins, thkj d&a’! ...::
     .;.;likk to.sign’their nati+.@ 1.1,
     .I;.tegfil d.ofxmen&”        ,..I ’...:i.’ Vendors support this because the affidavit serves as
                                          proof that the minor misrepresented his or her age.

    Decoy or “stir@ operations succ-               limit vendo?sfhom sellihg to minors

    Twenty-four officials volunteered that either the              .;                          .
    State ABC or the State or local police perform                    “Sting opertitiorts allow us to
    successful youth decoy operations otherwise known                 control our vtindors much
    as “stings.” These operations consist of sending               ‘. more effectivelj. Iii one
    minors into stores and restaurants to purchase                    parish, we had minors buy
    alcohol. If the employee sells alcohol to the minor,           ‘, alcohol in 21 of 22
    an undercover agent will cite or arrest the                       convenience stores. 7Iie
    employee and/or vendor. The major purposes are                    vendors attended hearings
    to identify and penalize vendors that sell to youth.              and were either jined and/or
                                                                      had their licenses suspended.
    Many States do not by law allow “stings.” One                     The next year, only three
    State official admitted that his State does not use               vendors sold alcohol to ok
    stings because authorities feel uncomfortable                  .I minors.”
    having minors attempt illegal actions.

    States perform reverse minor decoy programs, such as Indiana’s “Operation Grab” and
    Delaware’s and Oklahoma’s “Cops-in-Shops.” In these programs, agents pose as clerks
    and servers to arrest minors and adults who buy for minors. Vendors have been
    receptive to this program and have cooperated with enforcement agencies.

    Educaling   vendors about kzws   andpe~lries       reducessak to minors

                                              Although most States have provisions for either
          ‘!J’ve&n’~‘&~&.&&~ by          :    mandatory or voluntary server training programs,
     ,‘.-sotie bf the qU&ions       .,.’      47 of the 51 State officials believe that increasing
     ? vendors ask’ me durfng these           server training would be effective in preventing
     II:’traini& s6ki6its.1’
     ... :::.‘,.                              minors from obtaining and consuming alcohol.
                                              Server training involves educating vendors about
                                              the State’s alcohol control laws, regulations, and
    penalties, their civil liability for selling to a minor, how to identify an underage drinker,
    and how to determine whether an identification card is genuine. Server training may
    be offered by AIKs or other public or private organizations.




                                                       13 

When asked if they have undertaken any special initiatives to prevent alcohol sales to
minors, one-third of the officials volunteered that their States’ effective server training
programs have been vital. “We know server training works. We can demonstrate
this,” said one State official. “In the past year, we have educated 2,000 people,” added
another official. “And there has been only one infraction from that group.”

While 11 States mandate server training for all vendors, most programs are voluntary.
As an incentive, States may reduce penalties for vendors who have completed training
and have illegal sale violations. One official reported that vendors in his State are
protecting themselves by installing hidden cameras that show people entering the
establishment and presenting IDS to the clerk.

Sbict W-am shop” laws deter i&gal sales to minors

Twenty-three States have civil liability or “dram
shop” laws which specifically allow lawsuits              !‘We have strong ‘dram-shop’
against persons who provide alcohol to minors.            liability laws. Vendors have
Several other States allow lawsuits, but only            .been more concemed since
under certain conditions. South Dakota clearly            these were passed. Being sued
prohibits such lawsuits. Several State officials          does not put them out of
mentioned that the threat of costly litigation            business, but their insurance
causes vendors to refuse to sell alcohol to              premiums go through the roof.
minors.                                                   Then they have to rake ptices,
                                                          and they lose business. Our
In 1985, the American Bar Association (ABA)              .dram-shop laws have made
recommended that all States enact statutes to             industry more responsive. You
allow lawsuits against persons who knowingly sell        have to empower the people to
alcohol to minors. The ABA reasoned that such            affect vendors’ well-being.”
a statute would promote responsible serving
practices.’ In 1985, the Federal government
funded the development of a model dram shop law. During this development, a
review of court cases in three States revealed that “the legal system was not
establishing clear guidelines for applying dram shop liability provisions or concepts.“’
The model dram shop law clearly allows lawsuits for damages resulting from negligent
alcohol sales to minors. It also promotes responsible serving practices by allowing a
vendor to use evidence of server training as a defense in a lawsuit.




    ‘American Bar Association, American Bar Association Policv Recommendation on Youth
Alcohol and Drue Problems (Washington: American Bar Association, 1986), p. 39.

   ‘Victor Colman et al., “Preventing Alcohol-Related Injuries: Dram Shop Liability in a
Public Health Perspective,” Western State University Law Review (12), Spring 1985, p. 444.


                                              14
Officials reported other practices that they believe are effective:

        New Jersey issues a minor’s drivers licenses with profile photographs, rather 

        than the frontal photograph used for adults. 


        Many States require visible notices posted in establishments explaining penalties 

        for serving to minors, and for minors themselves. 


       In Florida, employees sign affidavits acknowledging that alcohol sales to minors 

       are immediate cause for dismissal. 


       Alabama issues press releases listing names of minors arrested for alcohol 

       violations. Michigan publishes the results of vendor sting operations. 


       Ohio and New Hampshire send letters to school principals about enhanced 

       enforcement activities during proms or graduation time. 


       In Oregon, when schools hear of parties, the ABC sends letters to the parents 

       about the party and the parents’ potential liability. 


       North Dakota, Oregon, and Washington require vendors to register beer kegs 

       for identification purposes. In addition, North Dakota vendors use invisible ink 

       on tags that allows authorities to track purchasers. In Washington, if the police 

       raid a party and find that the beer keg does not have the tag, the 

       21-year-old who is nearest to the beer keg may be cited with a violation. 


       Some States have parents attend court and diversionary programs with their 

       youth who have been cited for an offense. 


       New Hampshire, Ohio, and Virginia offer toll-free telephone numbers for 

       citizen complaints. 


ENFORCEMENT         IS INHIBITED     BY PUBLIC ATTTPUD EANDDEFICIENCIES
IN EDUCATION

According to State officials, the public’s attitude about youth drinking and deficiencies
in comprehensive, early alcohol education in schools are common enforcement
obstacles. One-third of the officials mentioned that public indifference makes
controlling underage drinking difficult. Forty-eight of 51 officials believe that
increasing alcohol education in schools would decrease students’ alcohol use.

public indifference prevents changes in youth attihuk

State officials mentioned problems with parental and social attitudes. “A lot of kids
are encouraged to drink by lax parental behavior,” said one official. In some States,
social attitudes have changed when community groups challenge the status quo. State


                                            15
officials believe that organized community groups, such as MADD, influence State
legislators, enforcement agencies, and courts. One official commented, “Society is
going to have to become responsible for itself. It will have to expand from the family
to the workplace to the community.”

Although officials complained that the public accepts youth drinking, they believe that
the Surgeon General can change public attitudes. One State official mentioned the
cigarette smoking campaigns that publicize adverse health effects. He commented,
“The Surgeon General’s research on the effects of cigarette smoking had an effect on
behavior. Increased research and documentation of alcohol problems might help.
The same thing needs to happen with alcohol as happened with smoking.” Another
added, “It needs to be socially unacceptable for youth to drink.”

Early education, innovation, and focw on penalties and health are kzys to succw

State officials volunteered techniques they use to increase education’s effectiveness:

b	     Start education early. State officials believe that early alcohol education, as
       early as kindergarten, shapes life behavior. “‘Why are kids drinking?’ is the
       question that needs to be answered,” said one official. “People are better
       educated about alcohol than ever before, but youth continue to drink. We
       need to focus our message on younger students. By the time they reach
       college, it’s too late.”

b	    Use peer pressure to make drinking unpopular. State ABCs, in conjunction
      with schools and local communities, have attempted to create a group of non-
      drinking youth through various promotions. In turn, the group uses peer
      pressure to discourage youth drinking. In North Carolina, a national insurance
      company enlisted the help of local radio stations to convince students to sign
      no-drinking pledges by offering prizes and other incentives. Under a federal
      grant, Ohio worked with MADD to create an animated character/mascot, called
      Hoola the Hippo, and a video that encourages younger students to make
      responsible decisions and resist peer pressure to drink.

b	    Educate youth on laws and penalties as welI as health consequences of
      drinking. Some State officials believe that youth should be educated about the
      health consequences and legal penalties they face for drinking alcohol. “Kids
      do not understand what alcohol does to the body and the mind. We should
      show them the victims of drunk driving, for instance, in driver’s education.”
      Another State official believes that programs will be effective only if they show
      the potential liability--such as suspension of their drivers’ licenses--as well as the
      health effects. One official cautioned that educators must be careful and not
      equate alcohol with illegal drugs. “A lot of education is done clumsily. It
      disturbs me that they talk about a glass of beer in the same sentence as crack
      cocaine. Beer is a legal, socially acceptable substance. Treat it like it is.”



                                            16 

              CHECKLIST                     FOR STATES 

The OIG report has identified loopholes in State laws and weaknesses in law
enforcement and education. We encourage States to examine their laws and policies
concerning youth accessto alcohol and offer the following checklist.

    YOUR ALCOHOL         LAWS:

q    prohiiit youth from purchasing and attempting to purchase,

q    prohibit youth from consuming and possessingin public places,

q    prohibit youth from consuming and possessingin private places without
     parent or guardian supervision,

q   contain employment provisions which reduce the opportunity for youth to
    sell alcohol to peers,

0   ban youth from entering bars, taverns, cocktail lounges, and other
    establishments that are primarily drinking establishments,

q   contain specific civil liability provisions addressing establishments and individuals
    that illegally provide alcohol to minors,

q   contain provisions such as California’s “Kegger Statute” that allow enforcement
    agents to take action against minors who drink in private residences,

q   provide decoy operation authority, and

q   provide options for diversionary penalties, such as driver’s license suspension?


DO YOU EMPHASIZE THE NEED FOR LAW ENFORCEMENT AND ABC
AGENCIES TO PREVENT YOUTH FROM ILLEGALLY PURCHASING
ALCOHOL BY:

0   giving high priority to detecting and prosecuting alcohol-related offenses,

0   ensuring that alcohol enforcement agencies are adequately funded and staffed,

q   giving your ABC jurisdiction over minors, and

0   assuring that penalties are adequate, appropriate, and uniformly applied?




                                           17 

ARE YOUR EDUCATION              EFFORTS DIRECTED          AT:

0      youth at early ages, using unique approaches whenever possible,

0      the general public to change attitudes about youth drinking,

fl 	   law enforcement agencies to emphasize the need to eliminate youth accessto
       alcohol,                                                         I

•J     the judicial system to stress the need to impose penalties, and

0      alcoholic beverage sellers through vendor and server training programs?


DO YOU INHIBI’T THE USE OF FALSE IDENTIFICATION                        DOCUMENTS      (IDS)
By:

Cl     prohibiting the manufacture and sale of false IDS,

0      prohibiting minors from misrepresenting their age,

Cl     providing adequate penalties for violations of false ID laws,

0      vigorously prosecuting offenders, and

0	     issuing drivers’ licenses and identification cards that cannot be duplicated
       or counterfeited?




                                               18 

